CERTIFICATE OF COMPLIANCE
No. 19-281

In the Supreme Court of the United States
CAPITAL ASSOCIATED INDUSTRIES, INC.,
Petitioner,
v.
JOSH STEIN, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF THE STATE OF NORTH CAROLINA, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Brief of
N.C. Chamber Legal Institute, et al. contains 3,861 words (based on the word count
of the word-processing system used to prepare the document), excluding the parts of
the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2019.

Troutman Sanders LLP
305 Church at North Hills Street
Raleigh, NC 27609
(919) 835-4127
chris.browning@troutman.com
Counsel of Record for Amici N.C.
Chamber Legal Institute, et al.

